          OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report




       State of New Hampshire
       Clean Water State Revolving Fund
       Program Financial Statements
       for the Year Ended June 30, 2005

       Report No. 2007-1-00037

       February 7, 2007
Abbreviations

CAFR       Comprehensive Annual Financial Report
CWSRF      Clean Water State Revolving Fund
DES        New Hampshire Department of Environmental Services
EPA        U.S. Environmental Protection Agency
GASB       Government Accounting Standards Board
OIG        Office of Inspector General
OMB        Office of Management and Budget
SRF        State Revolving Fund
                        U.S. Environmental Protection Agency                                        2007-1-00037 

                        Office of Inspector General                                               February 7, 2007




                        At a Glance

                                                                       Catalyst for Improving the Environment

Why We Did This Audit             State of New Hampshire Clean Water State
We performed this audit to
                                  Revolving Fund Program Financial Statements
determine:                        for the Year Ended June 30, 2005
• Whether the New                  What We Found
  Hampshire Clean Water
  State Revolving Fund            We rendered an unqualified opinion on the New Hampshire Clean Water
  Program’s (the Program’s)       State Revolving Fund (CWSRF) Program financial statements for the year
  financial statements were
  fairly presented in all         ended June 30, 2005.
  material respects,
• To what extent the              We noted various reportable conditions that we considered material
  Program’s internal controls     weaknesses in internal controls. These deficiencies in the design and
  over financial reporting        operations of internal controls for the CWSRF-specific financial accounting
  could be relied upon, and       and reporting could adversely affect the State’s ability to record, process, and
• Whether the Program             report financial data consistent with the assertions of management in the
  complied with applicable        CWSRF financial statements. The State did not reconcile cash and
  laws and regulations.           investment balances to the CWSRF general ledger, and did not reconcile the
                                  general ledger to original source documentation, resulting in numerous
Background                        unrecorded transactions and errors going undetected. The State made
                                  incorrect journal entries, incorrectly calculated amortization schedules, did
The requirement for audited       not record loan payments, and materially misstated cash balances and short-
financial statements was          term investments.
enacted to help ensure that the
Program had management            We qualified our opinion on compliance with applicable laws and regulations
practices, systems, and           because the State did not comply with the subrecipient monitoring
controls in place to provide      requirements for followup on subrecipient Single Audits.
reliable information for
managing the federally-funded      What We Recommend
program.
                                  To correct the internal controls weaknesses, we recommend that EPA require
                                  the New Hampshire Department of Environmental Services to: coordinate
                                  with the State Treasury to obtain up-to-date documentation on cash and
                                  investment transactions, make the necessary reconciliations, develop and
For further information,
contact our Office of
                                  implement procedures for reviewing and reporting, and develop training on
Congressional and Public          the accounting system. For the compliance issue, we recommend that EPA
Liaison at (202) 566-2391.        require the State to implement a policy for Single Audit report review.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070207-2007-1-00037.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                               OFFICE OF 

                                                                                          INSPECTOR GENERAL





                                         February 7, 2007

MEMORANDUM

SUBJECT:       Auditor’s Report for the State of New Hampshire
               Clean Water State Revolving Fund Program
               Financial Statements for the Year Ended June 30, 2005
               Report No. 2007-1-00037

TO :           Robert W. Varney
               Regional Administrator, EPA Region 1


Attached is a copy of the subject audit we sent to the State of New Hampshire. The audit
contains reports on the financial statements, internal controls, and compliance requirements
applicable to the Clean Water State Revolving Fund program in New Hampshire for the year
ended June 30, 2005. We issued an unqualified opinion on the financial statements and a
qualified opinion on the compliance requirements, as discussed in our report on compliance.
In our report on internal controls, we noted issues involving the internal control structure and its
operations that we considered to be a material weakness.

This report represents the opinion of the Office of Inspector General and does not represent the
final position of the U.S. Environmental Protection Agency (EPA). Final determination on
matters in this report will be made by EPA managers in accordance with established audit
resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $106,798.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 120 days. You should include a corrective actions plan for agreed upon actions,
including milestone dates. Please email an electronic version of your response to
kasper.janet@epa.gov.

We have no further objections to the further release of this report to the public. The report
contains no confidential business or proprietary information. This report will be available at
http://www.epa.gov/oig.
If you have any questions or concerns regarding this report, please contact Janet Kasper, the
Director for Assistance Agreement Audits, at (312) 886-3059 or kasper.janet@epa.gov.


                                                     Sincerely,




                                                     Bill A. Roderick
                                                     Acting Inspector General

Attachment
                   State of New Hampshire Clean Water State Revolving Fund Program 

                          Financial Statements for the Year Ended June 30, 2005 





                                      Table of Contents 

Independent Auditor’s Report ............................................................................................                      1     


            Statement of Net Assets..........................................................................................                  2

            Statement of Revenues, Expenses, and Changes in Net Assets ...........................                                             3

            Statement of Cash Flows ........................................................................................                   4

            Notes to the Financial Statements ..........................................................................                       5


Independent Auditor’s Report on Internal Control Over Financial Reporting 

and on Compliance and Other Matters Based on an Audit of Financial 

Statements Performed in Accordance with Government Auditing Standards ..............                                                          14 


            Internal Control Findings, Recommendations, and Responses ..............................                                          17 

            Compliance Finding, Recommendation, and Response .........................................                                        20 


Status of Recommendations and Potential Monetary Benefits.......................................                                              22


Distribution         ......................................................................................................................   23 

                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL



                                 Independent Auditor’s Report


We have audited the accompanying financial statements of the State of New Hampshire Clean
Water State Revolving Fund Program (the Program) as of and for the year ended June 30, 2005.
These financial statements are the responsibility of the Program’s management. Our responsibility
is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

As discussed in Note 1, the financial statements of the Program are intended to present the
financial position, and the changes in financial position and cash flows of the Program. They do
not purport to, and do not, present fairly the financial position of the State of New Hampshire, as
of June 30, 2005, and the changes in its financial position and its cash flows, where applicable, for
the year then ended in conformity with accounting principles generally accepted in the United
States of America.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Program, as of June 30, 2005, and the changes in financial position and
cash flows, where applicable, thereof for the year then ended in conformity with accounting
principles generally accepted in the United States of America.



Office of Inspector General
May 16, 2006




                                                  1

                                     State of New Hampshire 

                             Clean Water State Revolving Fund Program 

                                     Statement of Net Assets 

                                        as of June 30, 2005

                                                                                                         Total
                                                                                                     (Memorandum
Assets                                                          SRF                  Management          Only)
Current assets:
    Cash and cash equivalents                          $    58,078,559              $    2,119,655   $ 60,198,214
    Current receivables
        Loan interest                                          3,406,611                                3,406,611
        Investment interest                                      109,595                                  109,595
        Due from other fund                                                                90,722          90,722
        Current portion of loans receivable
            Wastewater                                      11,262,567                                 11,262,567
            Landfills                                        5,522,459                                  5,522,459
            Reloans                                          3,569,812                                  3,569,812
    Total current receivables                               23,871,044                      90,722     23,871,044
Total current assets                                        81,949,603                   2,210,377     84,159,980

Noncurrent assets:
    Loans receivable, net of current portion
        Wastewater                                          93,533,584                                 93,533,584
        Landfills                                           32,157,613                                 32,157,613
        Reloans                                             47,235,210                                 47,235,210
Total noncurrent assets                                    172,926,407                         -      172,926,407

Total assets                                               254,876,010                   2,210,377    257,086,387


Liabilities and Net Assets
Current liabilities
    Due to other funds                                          176,007                       809         176,816
    Project costs payable                                       608,978                                   608,978
Total liabilities                                               784,985                       809         785,794

Net assets:
    Restricted                                             254,091,025                   2,209,568    256,300,593

Total liabilities and net assets                       $ 254,876,010                 $ 2,210,377     $ 257,086,387




                                   See accompanying notes to the financial statements.


                                                           2
                                 State of New Hampshire 

                      Clean Water State Revolving Fund Program 

              Statement of Revenues, Expenses, and Changes in Net Assets 

                            for the Year Ended June 30, 2005 


                                                                                                        Total
                                                                                                    (Memorandum
                                                             SRF                      Management        Only)
Operating revenues
    Loan interest                                    $       4,356,317                              $     4,356,317
    Investment earnings                                      1,230,524                                    1,230,524
    Management fees                                                                   $ 1,646,071         1,646,071
Total operating revenues                                     5,586,841                  1,646,071         7,232,912

Operating expenses
   Administrative costs                                        737,562                  1,489,642         2,227,204
Operating income                                             4,849,279                    156,429         5,005,708

Capital contributions
    Federal grants                                        12,756,503                                     12,756,503
    State contributions                                    2,551,296                                      2,551,296
Total capital contributions                               15,307,799                                     15,307,799

Change in net assets                                      20,157,078                     156,429         20,313,507

Net assets, beginning of year                            233,933,947                    2,053,139       235,987,086

Net assets, end of year                              $ 254,091,025                    $ 2,209,568   $ 256,300,593




                                See accompanying notes to the financial statements.


                                                         3
         New Hampshire Department of Environmental Resources
                  Clean Water State Revolving Fund
                        Statement of Cash Flows
                  for the Year Ended June 30, 2005


Cash flows from operating activities:
  Principal repayments received from borrowers                     $    15,305,197
  Interest payments received from borrowers                              4,692,417
  Loan advances to borrowers                                           (25,008,637)
  Management fees                                                        1,646,071
  Interest on investments                                                1,125,000
  Payments to suppliers and employees                                   (2,185,069)
  Net payments to other funds                                               (4,932)

Cash (used) by operating activities                                    (4,429,953)

Cash flows from capital and related financing activities:
  Environmental Protection Agency                                       12,756,503
  State of New Hampshire                                                 2,551,296

Net cash from (used in) capital and related financing activities        15,307,799

Net cash provided by operating activities                               10,877,846

Cash and cash equivalents, beginning of year                            49,320,368

Cash and cash equivalents, end of year                                  60,198,214

Reconciliation of operating income to cash (used) by
operating activities
   Operating income                                                $    5,005,708
      Adjustments to reconcile operating income to
      net cash flow (used) by operating activities:
         (Increase) decrease in current receivables                        150,891
         Increase (decrease) in current liabilities                        116,888
         Disbursements on loans                                        (25,008,637)
         Loan principal repayments                                      15,305,197

Net cash (used) by operating activities                            $   (4,429,953)




                                            4

            New Hampshire Department of Environmental Resources 

                     Clean Water State Revolving Fund 


                           Notes to the Financial Statements 




1.   Organization of the Fund

     The New Hampshire Clean Water State Revolving Fund Program (the Program) was
     established pursuant to Title VI of the Federal Water Quality Act of 1987 (the Act). The
     Act established the State Revolving Fund (SRF) program to replace the construction
     grants program. The purpose of the SRF is to provide low interest loans to local
     governments for the purpose of constructing wastewater treatment facilities,
     implementing nonpoint source management plans and estuary management plans. The
     loan repayment period ranges from five to twenty years, and all repayments, including
     interest and principal, must be credited to the Program.

     The SRF program is administered by the State of New Hampshire’s Department of
     Environmental Services (DES), and consists of a loan fund (SRF) to record loan and
     related activity and an administrative fund (Management) that collects fees and pays
     some of the operating costs of the program, and are collectively referred to as the
     Program. The Department’s primary responsibilities for the SRF include obtaining
     capitalization grants from the Environmental Protection Agency (EPA), soliciting
     potential interested parties for loans, negotiating loan agreements with local communities,
     reviewing and approving payment requests from loan recipients, monitoring the loan
     repayments, and conducting inspection and engineering reviews to ensure compliance
     with all applicable laws, regulations, and program requirements.

     The program does not have any full time employees, instead, the DES charges the
     Program for time spent on SRF activities by its employees and the Program reimburses
     DES for such costs the following month. The charges include the salaries and benefits of
     employees, as well as indirect costs allocated to the program. Employees are covered by
     the benefits available to State of New Hampshire employees.

     The Program’s financial statements, footnotes, and related schedules are presented for the
     U.S. Environmental Protection Agency. The Program is included in the State of New
     Hampshire’s comprehensive annual financial report (CAFR) as part of the governmental
     fund financial statements, which use the modified accrual basis of accounting. Due to
     differences in reporting methods, there may be differences between the amounts reported
     in these financial statements and the States CAFR.

2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Program are presented as an enterprise fund. As such,
     the Program is accounted for using the flow of economic resources measurement focus




                                            5

            New Hampshire Department of Environmental Resources 

                     Clean Water State Revolving Fund 


                           Notes to the Financial Statements 


2.   Summary of Significant Accounting Policies (continued)

     and is maintained on the accrual method of accounting, revenues are recognized when
     earned and expenses are recorded at the time the liabilities are incurred. All assets and
     liabilities associated with the operations of the Program are included on the balance sheet.
     The State has elected to follow the accounting pronouncements of the Governmental
     Accounting Standards Board (GASB), as well as statements issued by the Financial
     Accounting Standards Board (FASB) on or before November 30, 1989, unless the
     pronouncements conflict with or contradict GASB pronouncements.

     Cash and Cash Equivalents

     All monies of the Program are deposited with the New Hampshire State Treasurer
     Department which is responsible for maintaining these deposits in accordance with New
     Hampshire State law. The Program considers all such deposits to be cash. The Program,
     on a monthly basis, receives investment interest earnings on these deposits. According to
     State law, the Treasurer is responsible for maintaining the cash balances and investing
     excess cash of the Program, as further discussed in Note 3. Consequently, management
     of the Program does not have any control over the investment of the excess cash. The
     statement of cash flows considers all funds deposited with the Treasurer to be cash or
     cash equivalents.

     Loans Receivable

     Loans are funded by capitalization grants from EPA, State matching funds, funds
     generated from repayments and fund earnings. Loan funds are advanced to local
     agencies on a cost reimbursement basis, and interest begins accruing when funds are
     disbursed. After construction is completed, the local agency can elect to add the
     construction period interest to the loan amount, or they can pay it in total with the first
     loan repayment. Loans are amortized over periods of five, ten, fifteen or twenty years,
     and repayment of the loans must begin within one year of construction completion.
     There is no provision for uncollectible accounts, as all repayments are current, and
     management believes all loans will be repaid according to the loan terms.

     Contributed Capital

     In accordance with generally accepted accounting principles (GAAP), funds received
     from EPA and the State of New Hampshire for the capitalization of the Program are
     reported in the statement of revenues, expenses, and changes in fund net assets after
     nonoperating revenues and expenses.




                                              6

            New Hampshire Department of Environmental Resources
                     Clean Water State Revolving Fund

                           Notes to the Financial Statements

3.   Cash, Cash Equivalents, and Investments

     GASB Statement 40, Deposit and Investment Risk Disclosures-an amendment of
     GASB Statement No. 3, was implemented for the fiscal year ended June 30, 2005.
     As a result, the disclosures related to deposit and investment risks were changed.

     Deposits:

     The following statutory requirements and Treasury Department policies have
     been adopted to minimize risk associated with deposits:

     New Hampshire statute RSA 6:7 established policies the state Treasurer must
     adhere to when depositing public monies. Operating funds are invested per
     investment policies that further define appropriate investment choices and
     constraints as they apply to those investment types.

     Custodial Credit Risk: The custodial risk for deposits is the risk that in the event
     of a bank failure, the state's deposits may not be recovered.

     Custodial credit risk is managed in a variety of ways. Although State law does
     not require deposits to be collateralized, the Treasurer does utilize such
     arrangements where prudent and/or cost effective. All banks where the State has
     deposits and/or active accounts are monitored as to their financial health through
     the services of Veribanc, Inc., a bank rating firm. In addition, ongoing reviews
     with officials of depository institutions are used to allow for frequent monitoring
     of custodial credit risk.

     All depositories used by the state must be approved at least annually by the
     Governor and Executive Council. All commercial paper must be from issuers
     having an A1/P1 rating or better and an AA- or better long-term debt rating from
     one or more of the nationally recognized rating agencies. Certificates of deposits
     must be with state or federally chartered banking institutions with a branch in
     New Hampshire. The institution must have the highest rating as measured by
     Veribanc, Inc.

     Whereas all payments made to the State are to be in U.S dollars, foreign currency
     risk is essentially nonexistent on State deposits.

     As of June 30, 2005, the CWSRF's bank balances were exposed to custodial credit
     risk as follows:




                                              7

                New Hampshire Department of Environmental Resources
                         Clean Water State Revolving Fund

                              Notes to the Financial Statements

3.       Cash, Cash Equivalents, and Investments (continued)

         CWSRF Fund Deposit Credit Risk
         June 30, 2005 (amounts in thousands)
                                                              Collateralized
                                                                & Held in
     Type                                      Insured        State’s Name      Uncollateralized
     Demand Deposit                             $228,685                                      $0
     Money Market                             35,335,332                                       0
     Overnight Repurchase Agreements
     Term Repurchase Agreements              12,420,625         10,093,917
        Totals                              $47,984,642        $10,093,917                    $0




         Investments:

         The Treasury Department has adopted policies to ensure reasonable rates of return
         on investments while minimizing risk factors. Approved investments are defined
         in New Hampshire statutes. Additionally, investment guidelines exist for
         operating funds as well as trust and custodial funds. All investments are
         denominated in U.S. dollars. As of June 30, 2005, the CWSRF had the following
         types of investments:

                   Investment Type                                    Balance
                   Term Repurchase Agreements                        $10,093,917
                   Money Markets                                      35,335,332
                      Total Investments                              $45,429,249



         The table below reconciles the cash and investments in the financial statements to
         the footnote.

                        Per Balance Sheet
                          Cash and Cash Equivalents           $60,198,214

                        Per Footnote
                          Carrying amount of deposits          14,768,965
                          Investments                          45,429,249
                          Total per footnote                  $60,198,214




                                                8

             New Hampshire Department of Environmental Resources 

                      Clean Water State Revolving Fund 


                            Notes to the Financial Statements 



4.    Loans Receivable

      The Program makes loans to qualified local agencies at interest rates ranging from .1575
      percent to 4.128 percent. Interest rates are initially set in the original loan agreement, and
      then when the project is completed a supplemental loan agreement fixes the final interest
      rate to be charged at the lower of the original loan agreement or prevailing market rate,
      according to the following formula:

             Loan            Interest     

             Term                 Rate 

             5 years         25% of market minus 1% 

             10 years        50% of market minus 1% 

             15 years        75% of market minus 1% 

             20 years        80% of market minus 1% 


      Details of loans receivable as of June 30, 2005 are as follows:

                          Outstanding                                                  Outstanding
     Original Loan          Balance                                                     Balance
     Commitments            6/30/04           Disbursements         Repayments          6/30/05
     $388,259,707        $ 182,968,828         $ 25,617,614         $15,305,197        $193,281,245

      Loans mature at various intervals through January 1, 2026. The scheduled principal
      repayments for completely disbursed loans in subsequent years are as follows:

                            Principal                 Interest               Total
             2006         $  18,049,563             $   3,548,958       $    21,598,521
             2007            12,404,642                 3,353,985            15,758,627
             2008            11,345,737                 3,045,437            14,391,174
             2009              9,733,179                2,775,432            12,508,611
             2010              9,339,384                2,531,323            11,870,707
          2011 - 2015        41,003,641                 8,883,622            49,887,263
          2016 - 2020        26,697,461                 3,648,844            30,346,305
          2021 - 2025          9,360,883                  547,622             9,908,505
             2026                 14,860                    1,747                16,607
               Totals     $ 137,949,350             $ 28,336,970        $   166,286,320




                                               9

            New Hampshire Department of Environmental Resources 

                     Clean Water State Revolving Fund 


                          Notes to the Financial Statements 


4.   Loans Receivable (continued)

     DES has three categories of loans receivable, wastewater, landfills and repayments. The
     wastewater loans are for sewer and wastewater treatment projects. The landfill loans
     provide financial assistance for municipalities to close unlined landfills as well as the
     construction of transfer stations and recycling facilities directly related to the specific
     landfill closure projects. The repayment loans are loans made from revolving funds for
     either wastewater or landfill closure loans. The balances of these loan categories as of
     June 30, 2005 are as follows:

     Wastewater projects                                  $ 104,796,151
     Landfill projects                                       37,680,071
     Repayment projects (revolving loans)                    50,805,023

                                                          $ 193,281,245


5.   Contributed Capital

     The Program is capitalized by annual grants through the EPA. The State of New
     Hampshire must also contribute an amount equal to 20 percent of the federal
     capitalization amount. New Hampshire’s matching contribution has been provided
     through the appropriation of State resources. As of June 30, 2005, EPA has awarded
     capitalization grants of $226,232,978 to the State, of which $185,356,820 has been drawn
     for loans and administrative expenses. The State has provided match funds of
     $45,254,595, of which $37,071,359 has been deposited into the SRF.

     The following table summarizes the capitalization grant award, amounts drawn on each
     grant as of the balance sheet date, and balances available for future loans and
     administrative expenses.




                                             10

              New Hampshire Department of Environmental Resources 

                       Clean Water State Revolving Fund 


                              Notes to the Financial Statements 



5.      Contributed Capital (continued)

                                    Draws                 2005           Draws            Available
                Grant Amt           6/30/04               Draws          6/30/05           6/30/05


     1991     $ 40,690,941        $ 40,690,941                        $ 40,690,941
     1992       19,417,068           19,417,068                         19,417,068
     1993       19,207,782           19,207,782                         19,207,782
     1994       11,918,313           11,918,313                         11,918,313
     1995       12,834,171           12,834,171                         12,834,171
     1996       20,162,543           20,162,543                         20,162,543
     1997         6,191,100           6,191,100                          6,191,100
     1998       15,456,773           15,456,773                         15,456,773
     1999       13,698,723           13,698,723                         13,698,723
     2000       13,412,223           13,022,903      $     389,320      13,412,223
     2001       13,293,027                               12,367,183     12,367,183    $      925,844
     2002       13,322,628                                                                13,322,628
     2003       13,423,664                                                                13,423,664
     2004       13,204,022                                                                13,204,022
             $ 226,232,978        $ 172,600,317      $ 2,756,503      $ 185,356,820   $ 40,876,158

As of June 30, 2004 and 2005, State matching contributions were as follows:

                                              Total Match                Total Match
                                                 As of        2005          As of
                                              June 30, 2004 Contribution June 30, 2005
New Hampshire State
Matching Contribution                         $ 34,520,063 $ 2,551,296        $ 37,071,359




                                               11

            New Hampshire Department of Environmental Resources 

                     Clean Water State Revolving Fund 


                          Notes to the Financial Statements 



6.   Administrative Costs and Management Fee Revenue

     The Clean Water Act provides for states to use up to four percent of the capitalization
     grants toward SRF program administrative costs. The program also charges local
     agencies a one percent annual management fee on the outstanding principal balance after
     August 1996. These fees are deposited in a fund (Management) outside the SRF and are
     to be used to pay for the administrative costs of the Clean Water Revolving Loan
     Program as well as related water quality control costs.

     Total management fees and expenses as of June 30, 2005 are shown in the table
     following:

                  Fiscal Year           Fees Earned           Expenditures
                     1997                    $227,395              $138,619
                     1998                      523,836              277,972
                     1999                      570,120              324,457
                     2000                      658,775              430,811
                     2001                      838,128              396,318
                     2002                    1,225,115              815,187
                     2003                    1,323,794              932,450
                     2004                    1,312,001            1,311,604
                     2005                    1,646,071            1,489,642
                     Totals                $8,325,235            $6,117,060

     Total administrative costs charged to the Program are as follows:

                             SRF              Management            Total
             Fiscal      Administrative      Administrative     Administrative
             Year            Costs               Cost               Costs
             1997          $ 423,393           $ 138,619          $ 562,012
             1998              430,684             277,972            708,656
             1999              448,855             324,457            773,312
             2000              530,344             430,811            961,155
             2001              566,000             396,318            962,318
             2002              608,674             815,187          1,423,861
             2003              682,187             932,450          1,614,637
             2004              704,101           1,311,604          2,015,705
             2005              737,562           1,489,642          2,227,204
            Totals         $ 5,131,800         $ 6,117,060       $ 11,248,860




                                            12

            New Hampshire Department of Environmental Resources 

                     Clean Water State Revolving Fund 


                           Notes to the Financial Statements 


7.   Contingencies, Related Parties, and Subsequent Events

     Contingencies

     The Program is exposed to various risks of loss related to torts, thefts of assets, errors or
     omissions, injuries to state employees while performing Program business, or acts of
     God. The State maintains insurance for all risks of loss, which is included in the indirect
     costs allocated to the Program.

     According to DES management and legal counsel, there are no other loss contingencies,
     which require disclosure or accrual under the Statement of Financial Accounting
     Standards No. 5.


     Related Parties

     There are no related party transactions with or related amounts receivable from
     management of the Program.




                                              13

Independent Auditor’s Report on Internal Control Over Financial Reporting and
 on Compliance and Other Matters Based on an Audit of Financial Statements
       Performed in Accordance with Government Auditing Standards




                                     14 

                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




We have audited the financial statements of the New Hampshire Clean Water State Revolving
Fund Program (the Program) as of and for the year ended June 30, 2005, and have issued our
report thereon dated May 16, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

Internal Control over Financial Reporting

In planning and performing out audit, we considered the Program’s and the Division of
Environmental Protection’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the Program’s financial
statements and not to provide an opinion on the internal control over the Program’s financial
reporting. However, we noted certain matters involving the internal control over financial
reporting and its operation that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect the Program’s ability to record, process, summarize, and report financial data consistent
with the assertions of management in the Program’s financial statements. Reportable conditions
are described in the accompanying schedule of findings and responses.

A material weakness is a reportable condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
caused by error or fraud in amounts that would be material in relation to the financial statements
being audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that might be
reportable conditions and, accordingly, would not necessarily disclose all reportable conditions that
are also considered to be material weaknesses. However, we consider the reportable conditions
described in the accompanying schedule of findings, recommendations, and responses to be material
weaknesses.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Program’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a



                                               15 

direct and material effect on the determination of financial statement amounts. This included
tests of specific program requirements governing allowability for specific activities, allowable
costs, cash management, State matching, period of availability of funds and binding
commitments, program income, reporting, and subrecipient monitoring that are applicable to the
Program for the year ended June 30, 2005.

The management of the Program is responsible for the Program’s compliance with those
requirements. Our responsibility is to express an opinion on those requirements based on our
audit. An audit includes examining, on a test basis, evidence about the Program’s compliance
with those requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, except for the matter noted in the finding and recommendation section that
follows, the Program complied, in all material respects, with the specific program requirements
that are applicable to the Program for the year ended June 30, 2005.

This report is intended solely for the information and use of management of the Program and the
U.S. Environmental Protection Agency, and is not intended to be and should not be used by
anyone other than these specified parties.



Office of Inspector General
May 16, 2006




                                               16 

            Internal Control Findings, Recommendations, and Responses


Pursuant to American Institute of Certified Public Accountants standards incorporated by
Generally Accepted Government Auditing Standards as described in the accompanying
Independent Auditor’s Report on Internal Control Over Financial Reporting and on Compliance
and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards, relating to New Hampshire’s Clean Water State Revolving
Fund (CWSRF) program, the following reportable conditions are considered as material
weaknesses. We have discussed these matters with appropriate State officials.

Control Environment Needs Improvement

The foundation of the accounting and reporting system is the control environment established by
management. Management sets the tone of the organization, and determines the accounting
systems and procedures to be used. Management also establishes the necessary controls and
policies to assure that the assertions inherent in an accounting system are followed.

Management assertions include:

      •	 Existence or occurrence: The assets and liabilities of the organization exist at a
         given date, and recorded transactions occurred during the proper period.

      •	 Completeness: All transactions and accounts that should be included are included in
         the accounting system.

      •	 Valuation or allocation: The accounts are recorded and presented at appropriate
         amounts.

The CWSRF is accounted for and reported within the Department of Environmental Services’
(DES) General Fund. In order to facilitate program reporting required by the U.S.
Environmental Protection Agency (EPA), DES maintains a separate CWSRF accounting system
and provides EPA with program-specific financial statements. We noted deficiencies in the
design and operations of DES’ internal controls for the CWSRF-specific financial accounting
and reporting that, in our judgment, could adversely affect DES’ ability to record, process, and
report financial data consistent with the assertions of management in the CWSRF financial
statements. These conditions appear to have resulted, in part, from (1) the use of a separate
spreadsheet-based accounting system that a limited number of employees and management are
familiar with; (2) a lack of adequate training on the CWSRF-specific accounting system;
(3) inadequate written procedures for key areas such as monthly reconciliations to the CWSRF
general ledger and CWSRF financial reporting; (4) lack of management understanding, review
and approval of entries to the CWSRF general ledger and supporting schedules; and
(5) significant turnover of key staff and management working in the CWSRF program over the
last 2 years. Specifically, we noted the following matters that impact management assertions:



                                               17 

Existence or Occurrence: Periodic reconciliations of the CWSRF general ledger to the actual
cash and investment accounts maintained by the Treasurer is an important control aspect that can
provide assurances that the accounting records properly record cash and investment transactions
and balances. Management review of these reconciliations provides assurances that these
controls are working as intended.

We found that DES was reviewing the “zero balance” (the account used to deposit Federal draws
and related State match, and subsequent disbursements for loans or administration) and
“repayment” (the account for loan repayments and subsequent disbursement for loans) accounts
and noting any discrepancies. However, DES was not actually posting adjustments for
discrepancies to cash and investment balances in the CWSRF general ledger.

As a result of inadequate procedures for reconciling cash and investment balances on the
CWSRF general ledger to the cash and investments maintained by the Treasury, the cash balance
was understated and the investment balance in the CWSRF general ledger was overstated at
June 30, 2005 by approximately $5,700,000 and $5,000,000, respectively. The net difference
was primarily due to investment earnings that had been deposited to the accounts but were not
recognized as received on the CWSRF general ledger.

Completeness: As a result of the inadequate reconciliation procedures noted above, a long-term
repurchase agreement and its related $202,580 in investment earnings had not been recognized
on the CWSRF general ledger.

Valuation or Allocation: The amounts recorded in the CWSRF general ledger for loans and related
interest receivable should be supported by subsidiary schedules that provide details by specific loans.
Loans included on the schedule should be supported by proper loan documentation (such as loan
agreements, requests for disbursements, and loan amortization schedules). The subsidiary schedules
should be periodically reconciled to the CWSRF general ledger.

The State did not reconcile loan receivable balances to the CWSRF general ledger properly. While
the reconciliations identified specific loans that required adjustment, no adjustments were posted to
the general ledger. As a result, loans receivable at June 30, 2004, were approximately $19,000
greater than the supporting loan schedules, and interest receivable balances were misstated by
approximately $132,000 and $103,000 at June 30, 2004 and 2005, respectively. Loan interest
earnings for 2005 were misstated by approximately $29,000. To ensure that general ledger balances
are supported by subsidiary records, management should review the supporting schedules on a
regular basis to ensure the necessary adjustments have been made and the schedules support the
CWSRF general ledger balances.

Summary

SRF management has the responsibility to establish and maintain an accounting system and
control environment that both encourages and requires accurate financial information and
reporting. Management needs to ensure that the controls, policies, and accounting system are
designed and operating properly by reviewing monthly reports, reconciliations, and financial
statements, and making inquiries of staff. Prior to our audit, DES had recognized the need to

                                                18 

improve its CWSRF-specific accounting and management system. DES is currently in the
process of developing a new system expected to address this condition.

Recommendations

We recommend that the EPA Regional Administrator, Region 1, require the DES to:

   1.	 Coordinate with the Treasury and obtain up-to-date documentation on specific cash and
       investment transactions and balances. A schedule of cash, investments, and related
       earnings per the Treasurer should be reconciled with supporting documents and the
       CWSRF general ledger on a recurring basis.

   2.	 Reconcile its subsidiary schedule(s) for loans and interest receivable with the CWSRF
       general ledger on a recurring basis.

   3.	 Develop and implement procedures for appropriate review and approval of accounting
       entries and reporting from the CWSRF-specific accounting system, including year-end
       closing and reporting.

   4.	 Develop training on the CWSRF-specific accounting system for all appropriate staff and
       management, including the accountants, the accounting manager, and program manager.

State Response

The State responded on November 22, 2006, with the following:

       With regards to the comments on the accounting system, DES is in the middle of a system
       conversion from our manual, Excel spreadsheet based, system to a general ledger system.
       When this system conversion is complete, the majority of the posting and reconciliation
       issues will be resolved as we will have one integrated accounting package.

       Concerning the issue with Treasury, we are working with that department to improve the
       timely receipt of bank statements from them in order for DES to perform our
       reconciliations and postings in a timely manner.

       Procedures have been developed for review and approval of accounting entries and for
       the reconciliation of subsidiary schedules to the general ledger.

       As to training, all users will be trained on the new system and user guides will be
       developed for each level of user.

OIG Response

We find the State’s response to be acceptable.



                                                 19 

                Compliance Finding, Recommendation, and Response


Noncompliance on Subrecipient Monitoring

Office of Management and Budget (OMB) Circular A-133 and EPA regulations at Title 40, Code
of Federal Regulations, Section 31.26 require that a pass-through entity ensure that subrecipients
expending $500,000 or more in Federal awards during the subrecipient’s fiscal year meet the
Single Audit requirements for that fiscal year. The pass-through entity is to issue a management
decision on any audit findings within 6 months after receipt of the subrecipient’s audit report and
ensure that the subrecipient takes appropriate and timely corrective action. (OMB Circular
A-133, Subpart D §__.400(d))

DES did not have procedures in place to ensure that borrowers expending Federal awards met
the Single Audit requirements to issue management decisions with 6 months of receipt of the
audit reports, or to ensure that subrecipients take appropriate and timely corrective action. The
Program management was not aware that the monitoring of and response to Single Audit
requirements was necessary.

DES was not aware of the Single Audit status of their borrowers and therefore were not aware if
the borrower’s audit had uncovered any issues of noncompliance.

Recommendation

We recommend that the EPA Regional Administrator, Region 1, require the DES to:

   5. 	 Implement a Single Audit report review and corrective action policy consistent with
        OMB Circular A-133 and EPA regulations.

States Response

The State responded on November 22, 2006, with the following:

       In compliance with the March 6, 2000 recommendation from Charles R. McCollum,
       Audit Manager at OIG, regarding sub-recipient monitoring, on April 17, 2000 DES
       submitted the policy to EPA, Region 1 for review and approval. By letter dated February
       2, 2001, EPA responded that, after review of the policy by the regional office and the
       OIG, “we consider these steps to be prudent and we find that your policy complies with
       the sub-recipient monitoring requirements.”

       Based on this approved policy, DES believes that the CWSRF Program is in compliance
       with sub-recipient monitoring requirements. However, it appears that the OIG
       recommendation to EPA Region 1 in the current draft audit report would further require
       DES to “implement a Single Audit report review and corrective action policy consistent
       with OMB Circular A-133 and EPA regulations.” DES agrees to work with EPA,
       Region 1 in amending the present policy to meet these requirements if requested to do so.

                                                20 

OIG Response

EPA Region 1 should work with the State to assure that it meets the requirements of
OMB Circular A-133 and Title 40, Code of Federal Regulations, Section 31.26, regarding
pass-through entity responsibilities for followup on subrecipient audits.




                                             21 

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                       Planned
     Rec.    Page                                                                                                     Completion   Claimed    Agreed To
     No.      No.                         Subject                           Status1         Action Official              Date      Amount      Amount

      1       19 	 Require DES to coordinate with the Treasury and            O       EPA Regional Administrator, 

                   obtain up-to-date documentation on specific cash                           Region 1 

                   and investment transactions and balances. A
                   schedule of cash, investments, and related
                   earnings per the Treasurer should be reconciled
                   with supporting documents and the CWSRF
                   general ledger on a recurring basis.

      2       19     Require
                          	   DES to reconcile its subsidiary schedule(s)     O       EPA Regional Administrator, 

                     for loans and interest receivable with the CWSRF                         Region 1 

                     general ledger on a recurring basis.
      3       19 	 Require DES to develop and implement                       O       EPA Regional Administrator, 

                   procedures for appropriate review and approval of                          Region 1 

                   accounting entries and reporting from the CWSRF-
                   specific accounting system, including year-end
                   closing and reporting.

      4       19 	 Require DES to develop training on the CWSRF-              O       EPA Regional Administrator, 

                   specific accounting system for all appropriate staff                       Region 1 

                   and management, including the accountants, the
                   accounting manager, and program manager.

      5       20 	 Require DES to implement a Single Audit report             O       EPA Regional Administrator, 

                   review and corrective action policy consistent with                        Region 1 

                   OMB Circular A-133 and EPA regulations.




1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                                  22 

                                       Distribution


EPA Region 1

      Regional Administrator
      Director of Office of Ecosystem Protection
      Manager of Municipal Assistance Unit
      Audit Liaison
      CWSRF Coordinator

EPA Headquarters

      Director, Grants Administration Division
      Agency Followup Coordinator
      Infrastructure Branch Chief
      CWSRF Coordinator
      CWSRF Audit Manager

New Hampshire Department of Environmental Services

      Commissioner         

      Chief Operating Officer 

      CWSRF Supervisor          





                                             23 

